            DEPARTMENT OF
            DEPARTMENT OF HEALTH
                          HEALTH&&HUMAN
                                  HUMN SERVICES
                                        SERVICES                                                OFFICE OF INSPECTOR GENERAL

(7t
'-:'­
                                                                                                 Office
                                                                                                 Offce of


                                                                                                 150 S.
                                                                                                 150
                                                                                                         of Audit
                                                                                                            Audit Services,
                                                                                                          Leger Building,
                                                                                                 Public Ledger
                                                                                                                             Region ill
                                                                                                                  Services,Region
                                                                                                                 Building,Suite
                                                                                                      S. Independence
                                                                                                          IndependenceMall
                                                                                                                            Suite 316
                                                                                                                        Mal West
                                                                                                                                  316
                                                                                                                                     il




                                                                                                 Philadelphia, PA
                                                                                                 Philadelphia,  PA 19106-3499
                                                                                                                    19106-3499

                                                           AUG 552009
                                                           AUG   2009


               Number: A-03-07-00033
        Report Number: A-03-07-00033

        Mr. Todd Kerr
        Senior Vice President and Chief
                                  Chief Compliance Officer
        Fresenius Medical
        Fresenius MedicalCare
                           CareNorth
                                Nort America
                                      America
        920 Winter Street
        Waltham, Massachusetts 02451-1457

        Dear Mr. Kerr:

        Enclosed is
        Enclosed         is the
                             theu.S.
                                   V.S.Department
                                           Deparent ofofHealth    Healthand andHuman
                                                                                 HumanServices
                                                                                         Services (HHS), Office
                                                                                                         Office of
                                                                                                                 of Inspector
                                                                                                                     Inspector
        General (OIG), final report entitled "Payments for                       for Epogen
                                                                                     Epogen Administered
                                                                                            Admnistered atat Fresenius
                                                                                                             Fresenius Medical
        Care-First
        Care-First State, NewState,   New Castle,
                              Castle, Delaware."           Delaware."
                                                 We wil forward a copy of 
  We will forward a copy of this report to the HHS
        action official noted on          on the
                                               the following
                                                     following page   page for
                                                                            for review
                                                                                 reviewand
                                                                                        andany
                                                                                            anyaction
                                                                                                actiondeemed
                                                                                                       deemednecessary.
                                                                                                                necessar.

        The HHS action official
                          official will
                                   wil make
                                        make final
                                              final determnation
                                                    determinationasasto
                                                                      toactions
                                                                         actions taken
                                                                                  taken on
                                                                                        on all
                                                                                            all matters
                                                                                                matters reported.
                    that you
        We request that  you respond
                              respond totothis
                                           ths official within
                                                        withn 30
                                                               30 days from the date ofof this
                                                                                           this letter.
                                                                                                 letter. Your
        response should present any comments or additional information that you believe may have a
        bearng
        bearing on the final
                       final determnation.
                             determination.

        Pursuant to the Freedom of of Information Act, 5 V.S.C.
                                                           U.S.C. § 552, OIG reports generally are made
        available to the public to the extent that information in the report is not subject to exemptions in
            Act. Accordingly,
        the Act. Accordingly, ths
                                thisreport
                                     reportwil
                                            willbebeposted
                                                     postedon
                                                            onthe
                                                               theInternet
                                                                   Internetatathttp://oig.hhs.gov.
                                                                               http://oig.hhs.gov.

        If you have any questions or comments about this report, please do not hesitate to call me at
        (215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov,
                                           Stephen.Virbitsky(goig.hhs.gov, or contact Bernard Siegel,
        Audit Manager,
              Manager, at (215)
                          (215) 861-4484
                                861-4484 or
                                          or through
                                              though email at Bernard.Siegel@oig.hhs.gov.
                                                              Bernard.Siegel(goig.hhs.gov. Please refer
        to report number A-03-07-00033 in all correspondence.

                                                                Sincerely,
                                                                                                          -.
                                                             AJ-L ~
                                                                Stephen Virbitsky
                                                                Regional Inspector General
                                                                  for Audit Services


        Enclosure
Page 2 -- Mr. Todd Kerr


Direct Reply to HHS Action Official:
                           Offcial:

Nanette Foster Reilly,
               Reily, Consortium
                       Consortium Administrator
Consortum for
Consortium  forFinancial
                FinancialManagement
                          Management & & Fee
                                         Fee for
                                              for Service
                                                  Service Operations
                                                          Operations (CFMFFSO)
                                                                     (CFMFFSO)
Centers for Medicare & & Medicaid Services
         12th Street,
601 East 12th Street, Room
                      Room 235
Kansas City,
Kansas  City, Missouri
              Missouri 64106
rokcmora@cms.hhs.gov
rokcmora (g cms.hhs. gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





       PAYMENTS FOR 

  EPOGEN ADMINISTERED AT 

  FRESENIUS MEDICAL CARE–

        FIRST STATE, 

   NEW CASTLE, DELAWARE





                    Daniel R. Levinson

                     Inspector General 


                       August 2009

                      A-03-07-00033

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services administers the program.

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. Individuals diagnosed with end-stage renal disease often suffer from anemia, and
Epogen lessens the effects of anemia for those patients. Epogen doses are generally adjusted by
a physician based on a review of the patient’s medical record. For facilities that use a
preestablished dosing algorithm, a nurse may also adjust the Epogen dose to maintain an optimal
hematocrit (red blood cell) level.

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

Fresenius Medical Care—First State (First State), located in New Castle, Delaware, is one of
more than 1,500 renal dialysis facilities operated by Fresenius Medical Care North America.
First State provides treatment for end-stage renal disease using 25 renal dialysis stations. It
received payments totaling $5,916,116 for Medicare service provided from January 1, 2004,
through June 30, 2006. Of this amount, $1,719,455 was for the administration of Epogen.
During our audit period, First State did not use a dosing algorithm.

OBJECTIVE

Our objective was to determine whether First State administered, billed, and was paid for units of
Epogen consistent with the units that were ordered by attending physicians, as reflected in First
State’s medical records.

SUMMARY OF FINDING

For 75 of the 100 sampled claims, First State administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in First
State’s medical records. However, First State did not meet the Medicare payment requirements
for some dates of service for 25 claims (one of the claims had multiple errors). In those
instances, we identified discrepancies in First State’s medical and billing records between the
units of Epogen ordered by the patients’ attending physicians and the units administered to the
patients, billed by First State, and paid by Medicare.



                                                 i
    •	 For 11 claims with errors totaling $656, First State’s medical and billing records
       reflected that more units of Epogen were administered to patients, billed by First State,
       and paid by Medicare than were ordered by the patients’ attending physicians, resulting
       in overpayments. Based on the sample results, we estimate that First State received
       overpayments of at least $7,187 for the administration of Epogen from January 1, 2004,
       through June 30, 2006.

   •	 For nine claims, First State’s medical and billing records reflected discrepancies between
      the units of Epogen ordered by patients’ attending physicians and the units administered
      to patients, billed by First State, and paid by Medicare. For purposes of this report, we
      considered these errors procedural because they did not result in overpayments.

   •	 For six claims, First State’s medical records reflected errors in documenting the ordering
      and administering of Epogen but not discrepancies in the quantities of Epogen ordered,
      administered, billed, or paid. For purposes of this report, we considered these errors
      procedural because they did not result in overpayments.

The errors related to these 25 claims occurred because attending physicians and/or administering
nurses responsible for documenting and flagging the patients’ files for changes in ordered
Epogen amounts did not always follow the policy and procedures in the Fresenius Manual for
ensuring that changes in the units of Epogen ordered were properly identified and entered into
the Fresenius System. As a result, First State received at least $7,187 in overpayments and
patients did not always receive the amounts of Epogen ordered by attending physicians. When
attending physicians’ orders are not followed, quality of care may be affected.

RECOMMENDATIONS

We recommend that First State:

   •	 refund $7,187 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by
      patients’ physicians and the units administered to the patient, billed by First State, and
      paid by Medicare.

FRESENIUS COMMENTS

In comments on our draft report (see Appendix C), Fresenius stated that it will contact the
intermediary about refunding the $7,187 in overpayments and that the nursing staff will undergo
a training program to improve compliance with policies and procedures relating to the ordering
and administration of Epogen. Fresenius also brought to our attention a technical correction
regarding its algorithm policy that we have amended in the report.




                                                ii
                                                 TABLE OF CONTENTS 

                                                                                                                                   Page

INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1         

              Medicare ................................................................................................................1      

              Epogen Therapy for End-Stage Renal Disease Patients ........................................1 

              Medicare Requirements and Payments for End-Stage Renal Disease Services ....2 

              Fresenius Medical Care—First State .....................................................................2                       

              Fresenius’s Policy Manual and Medical Information System ...............................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................3 

               Objective ................................................................................................................3    

               Scope......................................................................................................................3   

               Methodology ..........................................................................................................3        


FINDINGS AND RECOMMENDATIONS ..............................................................................4 


          FEDERAL REQUIREMENTS..........................................................................................5                     

               Medical Recordkeeping .........................................................................................5               

               Medicare Payment Procedures...............................................................................5                    


          CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS ..........6 

               More Units of Epogen Administered, Billed, and Paid, Than Ordered.................7 

               Estimate of Overpayments.....................................................................................7                 


          CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED
            IN DISCREPANCIES ...................................................................................................7 

                Fewer Units of Epogen Administered, Billed, and Paid, Than Ordered................7 

                Contradictory Orders in Patient’s Medical Records ..............................................7 

                Claim Not Correctly Billed....................................................................................7 


          CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT 

            IN DISCREPANCIES ...................................................................................................8 


          FRESENIUS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED................8 


          DISCREPANCIES BETWEEN UNITS OF EPOGEN ORDERED, 

            ADMINISTERED, BILLED, AND PAID ....................................................................9 


          RECOMMENDATIONS.................................................................................................10                  


          FRESENIUS COMMENTS ............................................................................................10                   





                                                                   iii
APPENDIXES

    A – SAMPLING METHODOLOGY

    B – SAMPLE RESULTS AND ESTIMATES

    C – FRESENIUS MEDICAL CARE NORTH AMERICA COMMENTS




                                iv
                                              INTRODUCTION                                                            


BACKGROUND

Medicare

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Epogen Therapy for End-Stage Renal Disease Patients

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. 1

Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. The initial dose of Epogen is based on an individual’s
weight and hematocrit level, a measure of the percentage of red blood cells in the blood. The
target hematocrit level for dialysis patients receiving Epogen therapy is 30 to 36 percent, which
represents a hemoglobin level of 10 to 12 grams per deciliter. 2 For dialysis patients, hematocrit
levels above 36 percent can lead to increased risk of cardiovascular complications and death. 3

Epogen doses are generally adjusted by a physician based on a review of the patient’s medical
record. Some facilities may also use a preestablished dosing algorithm. An algorithm is a
formula established by attending physicians. It requires the nurse on duty to gather information
from the patient’s medical record and determine the correct dose of Epogen to maintain an
optimal hematocrit level. Based on the algorithm, a nurse may decrease, increase, or maintain
the Epogen dose or temporarily suspend the dose for one or more treatments. Fresenius Medical
Care—First State (First State) did not use an algorithm.




1
 Epogen is an “erythropoiesis-stimulating agent,” manufactured by Amgen, which stimulates the production of red
blood cells.
2
    CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4.
3
 After our audit period, the Food and Drug Administration issued a black box label warning for Epogen that
“erythropoiesis-stimulating agents (ESAs) increased the risk for death and for serious cardiovascular events when
administered to target a hemoglobin of greater than 12 [grams per deciliter] . . . .” Food and Drug Administration,
“Epogen Label,” March 9, 2007. Available online at http://www.fda.gov/cder/foi/label/2007/103234s5122lbl.pdf.
Accessed on April 23, 2009.


                                                          1

Medicare Requirements and Payments for End-Stage Renal Disease Services

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 10.1,
specifies that renal dialysis facilities receive a composite rate for outpatient maintenance dialysis
services. The composite rate is a comprehensive payment for dialysis services except for bad
debts, physicians’ patient care services, separately billable laboratory services, and separately
billable drugs, including Epogen. CMS contracts with fiscal intermediaries 4 to process and pay
Medicare Part B claims for Epogen administered by renal dialysis facilities. Generally, for each
patient, providers submit one bill per month, which includes the charges for up to 14 dialysis
treatments, separately billable laboratory services, and separately billable drugs, including
Epogen. Providers submitted claims that identified the total units of Epogen administered to
each patient during the billing period, not the dose of Epogen administered during each
treatment. Payments for Epogen are subject to Medicare Part B deductible and coinsurance
requirements.

Fresenius Medical Care—First State

Fresenius Medical Care North America (Fresenius), located in Waltham, Massachusetts, is a
wholly owned subsidiary of Fresenius Medical Care AG & Company KGaA, located in Bad
Homburg, Germany. Fresenius provides products and services for individuals with chronic
kidney failure.

First State, located in New Castle, Delaware, is one of more than 1,500 renal dialysis facilities
operated by Fresenius. First State provides treatment for end-stage renal disease at 25 renal
dialysis stations. It received payments totaling $5,916,116 for Medicare services provided from
January 1, 2004, through June 30, 2006. Of this amount, $1,719,455 was for the administration
of Epogen.

Fresenius’s Policy Manual and Medical Information System

To assist in its facilities’ efforts to comply with requirements under Federal and State law,
Fresenius established a medical record policy and documentation procedures in its Policy
Manual No. 138-030-040-2 (Fresenius Manual). The Fresenius Manual requires that each
facility must develop a process to identify any change in the ordered prescription drugs and enter
the change and the treatment in Fresenius’s Medical Information System (Fresenius System).
The Fresenius System prints a treatment sheet for each patient that lists selected patient

4
 During the audit period, the Medicare Part B claims we reviewed were processed and paid by fiscal intermediaries.
The Medicare Modernization Act of 2003, P.L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.


                                                         2

information from the previous treatment, the latest results of laboratory tests, and the required
services scheduled for the day’s treatment. The Fresenius Manual requires that each scheduled
service on the treatment sheet must be initialed or signed by the administering nurse, as
completed. The completed services, as well as any changes noted, must be entered into the
Fresenius System on a timely basis.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether First State administered, billed, and was paid for units of
Epogen consistent with the units that were ordered by attending physicians, as reflected in First
State’s medical records.

Scope

Our review covered 2,571 monthly claims totaling $1,719,455 for Epogen administered by First
State from January 1, 2004, through June 30, 2006.

We limited our review of First State’s internal controls to the administration of and billing for
Epogen, including medical recordkeeping. The objective of our review did not require an
understanding or assessment of First State’s complete internal control structure. We did not
determine the medical necessity of any items or services, including Epogen.

We performed fieldwork at First State in New Castle, Delaware, and the Fresenius headquarters
in Waltham, Massachusetts.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations, and guidance related to the treatment of
      end-stage renal disease, renal dialysis facilities, and the administration of Epogen;

   •	 reviewed applicable State laws, regulations, and guidance related to First State’s policies
      and procedures and the Fresenius Manual;

   •	 reviewed First State’s policies and procedures, including the Fresenius Manual, and its
      medical recordkeeping and billing practices;

   •	 interviewed Fresenius and First State officials;

   •	 identified and assessed the adequacy of internal controls related to the administration of
      and billing for Epogen; and




                                                 3

   •	 identified a sampling frame of all claims in the CMS claims history file with Epogen
      administered at First State from January 1, 2004, through June 30, 2006, and:

       o	 selected from the sampling frame a simple random sample of 100 claims for Epogen
          totaling $70,520 and

       o	 for each sampled claim, compared the units of Epogen ordered by the First State
          attending physician, administered to patients, billed by First State, and paid by
          Medicare to determine whether such units, as reflected in First State’s medical and
          billing records, were consistent with each other.

Appendix A provides a description of the sampling methodology and Appendix B details the
sample results and estimates the total overpayments for Epogen.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

For 75 of the 100 sampled claims, First State administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in First
State’s medical records. However, First State did not meet the Medicare payment requirements
for some dates of service for 25 claims (one of the claims had multiple errors). In those
instances, we identified discrepancies in First State’s medical and billing records between the
units of Epogen ordered by the patients’ attending physicians and the units administered to the
patients, billed by First State, and paid by Medicare.

    •	 For 11 claims with errors totaling $656, First State’s medical and billing records
       reflected that more units of Epogen were administered to patients, billed by First State,
       and paid by Medicare than were ordered by the patients’ attending physicians, resulting
       in overpayments. Based on the sample results, we estimate that First State received
       overpayments of at least $7,187 for the administration of Epogen from January 1, 2004,
       through June 30, 2006.

   •	 For nine claims, First State’s medical and billing records reflected discrepancies between
      the units of Epogen ordered by patients’ attending physicians and the units administered
      to patients, billed by First State, and paid by Medicare. For purposes of this report, we
      considered these errors procedural because they did not result in overpayments.

   •	 For six claims, First State’s medical records reflected errors in documenting the ordering
      and administering of Epogen but not discrepancies in the quantities of Epogen ordered,
      administered, billed, or paid. For purposes of this report, we considered these errors
      procedural because they did not result in overpayments.


                                                4

The errors related to these 25 claims occurred because attending physicians and/or administering
nurses responsible for documenting and flagging the patients’ files for changes in ordered
Epogen amounts did not always follow the policy and procedures in the Fresenius Manual for
ensuring that changes in the units of Epogen ordered were properly identified and entered into
the Fresenius System. As a result, First State received at least $7,187 in overpayments and
patients did not always receive the amounts of Epogen ordered by attending physicians. When
attending physicians’ orders are not followed, quality of care may be affected.

FEDERAL REQUIREMENTS

Medical Recordkeeping

As a condition for coverage during our audit period, renal dialysis facilities were required to
centralize all clinical information in each patient’s medical record in accordance with accepted
professional standards and practices (42 CFR § 405.2139). 5 The medical records were required
to be “completely and accurately documented, readily available, and systematically organized to
facilitate the compilation and retrieval of information.” Subsection (a) of 42 CFR § 405.2139
further stated that medical records must contain certain general categories of information,
including “diagnostic and therapeutic orders; observations, and progress notes; reports of
treatments and clinical findings . . . .”

Medicare Payment Procedures

As a basis for payment, section 1833(e) of the Act states that “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due such provider or other
person under this part for the period with respect to which the amounts are being paid or for any
prior period.”

Federal regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information,
upon request, to determine whether payment is due and, if so, the amount to be paid.

Beginning April 1, 2006, CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04,
chapter 8, section 60.4, required that renal dialysis facilities reduce the Epogen dose by
25 percent for patients whose hematocrit reading exceeded 39 percent in the preceding month. If
the renal dialysis facility did not reduce the dose by 25 percent, CMS would reduce the
reimbursement for Epogen by 25 percent. To avoid the reduced reimbursement, the provider
was required to include a “GS” modifier on the claim to indicate that it had reduced the Epogen
dose by 25 percent. We reviewed only sample claims for the period April 1 through June 30,
2006, for compliance with this payment adjustment guidance.




5
 This condition for coverage was amended effective October 14, 2008. The amended condition for coverage is now
at 42 CFR § 494.170.


                                                      5

CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS

For each sample claim, we compared First State’s medical and billing records with respect to the
units of Epogen (1) ordered by the patients’ attending physicians, (2) administered by the nurse
to the patient, (3) billed by First State, and (4) paid by Medicare. For 11 claims with questioned
amounts totaling $656, there were discrepancies in First State’s medical and billing records
between the units of Epogen ordered by the attending physician and the units of Epogen
administered and billed by First State, and paid by Medicare. First State administered, billed,
and was paid for higher doses than ordered by the attending physician, as documented in First
State’s medical and billing records.

More Units of Epogen Administered, Billed, and Paid, Than Ordered

For 11 claims covering 11 patients, First State’s medical records contained attending physicians’
orders that reduced the units of Epogen prescribed, but an assigned staff member did not record
the changes in the Fresenius System. 6 Consequently, the Fresenius System printed treatment
sheets showing the original units, which were administered to the patients, billed by First State,
and paid by Medicare.

    •	 For six claims the attending physicians’ orders decreased the units of Epogen prescribed
       1 to 2 months prior to the month reviewed. The six patients each received a higher
       amount than ordered for 1 to 13 treatments during the month reviewed. First State
       corrected the units administered during the month reviewed for one patient and the
       physician increased the units prescribed during the month reviewed for two patients.
       However, First State continued to administer more units of Epogen than ordered
       throughout the month reviewed for two patients. In total, these six patients received,
       First State billed, and Medicare paid for 44,800 more units of Epogen, totaling $351, than
       was ordered. 7

    •	 For four claims the attending physicians’ orders decreased the units prescribed for four
       patients during the month reviewed but each patient continued to receive the higher
       amount for two to six treatments through the end of that month. In total, these four
       patients received, First State billed, and Medicare paid for 39,000 more units of Epogen,
       totaling $303, than was ordered.

    •	 For one claim the attending physician’s order decreased the units prescribed for one
       patient during the month reviewed but the patient received a higher amount for one
       treatment. First State did not administer Epogen on the last treatment of the month


6
 The change in the units of Epogen prescribed appeared in the progress notes of the patients’ medical record for nine
patients and in the physician order section of the patients’ medical record for the remaining two patients.
7
 From the dates of the orders to reduce the number of units of Epogen through the end of the month reviewed, the
six patients each received more units than ordered for 11 to 36 treatments, resulting in the administration of 103,400
more units of Epogen, totaling $807, than was ordered. We included only the administered, billed, and paid units
that exceeded the ordered amounts during the sampled months in our estimate of overpayments.


                                                          6

       reviewed. The patient received, First State billed, and Medicare paid for 300 more units
       of Epogen, totaling $2, than was ordered

Estimate of Overpayments

Based on the sample results, we estimate that First State received overpayments of at least
$7,187 for the administration of Epogen from January 1, 2004, through June 30, 2006, for which
First State’s medical and billing records reflected discrepancies between the units of Epogen
ordered by the patients’ attending physicians, and the units administered to the patients, billed by
First State, and paid by Medicare.

CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN DISCREPANCIES

For nine claims, First State’s medical and billing records reflected discrepancies between the
units of Epogen ordered by the patients’ attending physicians and the units administered to the
patients, billed by First State, and paid by Medicare for one or more dates of service during the
month reviewed that did not result in an overpayment and are, for purposes of this report,
considered procedural errors. For seven of these claims, patients received lower doses than
ordered. The documentation for one claim had conflicting orders for dose changes signed on the
same day by the same attending physician. One claim was billed without the appropriate
modifier.

Fewer Units of Epogen Administered, Billed, and Paid, Than Ordered

For seven claims, First State’s medical records included attending physicians’ orders to increase
the units of Epogen but the changes were not entered into the Fresenius System on a timely basis.
As a result, the ordered amounts did not appear on the treatment sheets. Nurses continued to
administer the lower amounts for 1 to 10 treatments. First State administered, billed, and was
paid for fewer units of Epogen than ordered.

Contradictory Orders in Patient’s Medical Records

For one claim the patient’s medical record contained two contradictory orders for Epogen, both
signed by the same attending physician and dated February 24, 2005. One order, in the “order
section,” said to “decrease Epogen to 5,000 units” [emphasis added]. The other order, in the
“progress notes,” decreased the Epogen dose to 3,500 units. The prior dose was 4,000 units and
the patient’s hematocrit level was 41.1 percent. However, for the last two treatments in the
month we reviewed, the nurse administered and First State billed the 5,000 units indicated in the
order section (an increase rather than a decrease in the amount ordered). The contradictory
attending physician’s orders did not reflect the time ordered; therefore, we were unable to
determine whether there was an overpayment for this claim.

Claim Not Correctly Billed

For one claim with dates of service during April 2006, the patient had a hematocrit level higher
than 39 percent in the preceding month. On March 31, 2006, the attending physician’s order



                                                 7

reduced the units of Epogen prescribed from 9,000 to 6,700 units, a reduction of 25 percent, as
required by CMS for full reimbursement. First State continued to administer 9,000 units during
the first four treatments in April but reduced the dose to 6,700 units for the remaining eight
treatments for that month.

For this claim, First State administered and billed for a total of 89,600 units instead of the 80,400
units ordered (6,700 units for 12 treatments). However, First State did not include the necessary
“GS” modifier on the claim to indicate that it had complied with CMS’s requirement to reduce
the Epogen dose for the final eight treatments. Accordingly, CMS reduced the total payment
amount by 25 percent.

First State should have received a payment totaling $600 for the 80,400 units supported by an
attending physician’s order, but instead received $502: payment for the 89,600 units
administered less the 25 percent reduction. First State never questioned the reduction in the
amount paid. First State personnel administered 9,200 more units of Epogen than were ordered
during the month. However, because First State failed to use the “GS” modifier, CMS reduced
the entire month’s payment by 25 percent, and there was, therefore, no overpayment for this
claim.

CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN
DISCREPANCIES

In Delaware, the Nurse Practice Act requires that the authorized person administering a drug
“verif[y] the properly prescribed drug order, . . . records the time and dose given and assesses the
patient following the administration of medication for possible untoward side effects.”
(24 Del. C. § 1902(a)). To assist facilities in documenting compliance with Federal and State
requirements, the Fresenius Manual requires a physician’s signature for prescription orders and a
signature or initials of the administering nurse on the treatment sheet to show that the Epogen has
been administered.

For six other claims the patients’ medical records lacked the signature/initials of the
administering nurse, as required by First State’s internal policies, including those in the
Fresenius Manual. The administering nurse administered the units of Epogen consistent with the
patients’ attending physicians’ orders, but did not sign or initial the treatment sheet to document
the administration of Epogen for one date of service for six patients. First State billed for and
was reimbursed for the units ordered and administered.

FRESENIUS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED

To assist in its facilities’ efforts to comply with requirements under Federal law and States’
respective Nurse Practice Acts, Fresenius established the Fresenius Manual, which includes
medical record policies and documentation procedures. The Fresenius Manual requires that each
facility develop a process to record in the Fresenius System the results of each treatment and
changes to existing treatments, including the dose of Epogen to be administered.




                                                  8

    •	 The Fresenius System prints a treatment sheet for the patient’s next treatment.
       Administering nurses and patient care technicians provide treatment according to
       instructions printed on treatment sheets and administering nurses must ensure that all
       medications provided to the patient have been accurately documented with signed
       attending physician orders. Section A of the Fresenius Manual, “Physician Orders,”
       states that “[p]roviding service without physician orders is in violation of nurse practice
       acts.” Accordingly, the attending physician must provide a written order for an
       administering nurse to begin a new medication or to change the dose of a medication. 8

    •	 Each facility must develop a process by which the attending physician “flags” charts that
       have new or changed orders so that authorized support personnel can identify that a
       change has occurred and enter the change in the Fresenius System. Also, the Fresenius
       Manual identifies the duties and responsibilities for accurately documenting and updating
       its Fresenius System with changes to a patient’s treatment. After entry into the Fresenius
       System, those changes will be reflected on the patient’s next treatment sheet.

    •	 Results of a patient’s treatment, documented on the treatment sheet, must not be entered
       into the Fresenius System until the treatment is completed. A treatment sheet is
       considered completed after the administering nurse has given the treatment to the patient,
       administered all medications ordered, and confirmed the completion of these tasks by
       including their initials or signatures on the treatment sheet where appropriate.

Although First State had controls in place as specified in the Fresenius Manual, based on our
review, First State personnel did not always follow all of these procedures. Attending
physicians’ orders changing the dose of Epogen were not always identified and entered into the
Fresenius System on a timely basis. Therefore, changes to the attending physicians’ orders did
not always appear on subsequent treatment sheets.

Also, entries on the treatment sheet were not always initialed or signed.

DISCREPANCIES BETWEEN UNITS OF EPOGEN ORDERED, ADMINISTERED,
BILLED, AND PAID

Because First State personnel did not always follow the procedures required by the Fresenius
Manual, attending physicians’ orders were not always updated in the Fresenius System on a
timely basis. As a result, patients did not always receive the units of Epogen ordered by the
attending physician and First State received at least $7,187 in overpayments. When physicians’
orders are not followed, quality of care may be affected.




8
 The Fresenius Manual permits a physician to provide telephone orders; however, the physician must sign the order
during the next facility visit.


                                                        9

RECOMMENDATIONS

We recommend that First State:

   •	 refund $7,187 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by
      patients’ physicians and the units administered to the patient, billed by First State, and
      paid by Medicare.

FRESENIUS COMMENTS

In comments on our draft report, Fresenius stated that it will contact the intermediary about
refunding the $7,187 in overpayments and that the nursing staff will undergo a training program
to improve compliance with policies and procedures relating to the ordering and administration
of Epogen. Fresenius also brought to our attention a technical correction regarding its algorithm
policy that we have amended in the report. Fresenius’s comments are included in Appendix C.




                                                10 

APPENDIXES

                                                                                 APPENDIX A 



                               SAMPLING METHODOLOGY


POPULATION

The population included claims that were paid by Medicare to Fresenius Medical Care—First
State for end-stage renal disease services provided from January 1, 2004, through June 30, 2006.

SAMPLING FRAME

Our sampling frame included 2,571 Medicare claims for the administration of Epogen that
totaled $1,719,455.

SAMPLE DESIGN

The audit used a simple random variable sample.

SAMPLE SIZE

The sample consisted of 100 Medicare claims for the administration of Epogen.
                                                                      APPENDIX B 



                   SAMPLE RESULTS AND ESTIMATES 



CLAIMS FOR EPOGEN DOSAGE NOT JUSTIFIED BY DOCUMENTATION 



                             Sample Results

     Number of Claims in Sampling Frame                       2,571

     Value of Sampling Frame                             $1,719,455

     Number of Claims in Sample                                100

     Value of Sample                                       $70,520

     Number of Claims with Errors                                11

     Value of Errors                                          $656



      Estimate of Claims Not Meeting Documentation Requirements
           (Limits Calculated for a 90-percent confidence interval)

                       Estimated Unallowable Costs 


     Point estimate                                        $16,854               


     Lower limit                                             $7,187              


     Upper limit                                           $26,522               

                                                                                        APPENDIX C
                                                                                          Page 1 of 3




    July 13. 2009
                                                              D~©~n~lE~
   Stephen Virbitsky
   Regional Inspector General (Of Audit Services
   Office of Audil Services, Region III
                                                                       JUl 2 7 <lXJ9    lUI
   Public ledger Building. Suite 316
   150 S. Independence Mall West
   Philadelphia, PA 19106-3499

   Re: Audit Draft A-Q3-07-00033, Payments for Epogen Administered at
   Fresenius Medical care - First State. New Castle, Delaware,

   Dear Mr. Virbitsky:

   Thank you for the opportunity 10 review and respond to your office's Draft
   Report.

   The results of this draft report are consistent with other Medicare claims
   reviews condooed internally by Fresenius staff (as part of Fresenius' ongoing
   compliance audil program activities) and with other external reviews such as
   CERT and PERM. Of the S70.52O.OO in daims reviewed. S656.oo was
   identified by the audit as nol: eigible fOf Medicare reimborsement- reflecting
   0.9% of the sampled daims, This payment error rate compares fa\/Orably to
   the most recent May 2008 3.7% CERT national paid claims error rate.

   In response to these audit findings Fresenius will take the following steps:


   OIG Audit Recommendation:

   "ensure that it follows policies and procedures that are consistent with Federal
   requirements in order to avoid discrepancies between the units of Epogen
   ordered by the patients' physidans aoo the units administered to the patient,
   bined by First State. and paid by Medicare".




Fresenius Medical Care North America
Corporate   He~qUOlrte~:   92(1 Winter Street   Waltlum, MA 02'S1·1W    (n1169g..g000
                                                                                       APPENDIX C
                                                                                         Page 2 of 3




   Fresenius Corrective Action Taken or Planned:

   While the payment error rate is low, we recognize the need for the facility to
   improve its compliance with ~icies and procedures relating to the ordering
   and administration of Epogen. Therefore, the clinic will take the folloYMg
   steps:

      •     All numing staff will undergo an io-service program designed to inform
            the stan at (a) the statutes and regulatiofls relating 10 creating and
            maintaining medical record documentation; (b) the applicable
            Fresenius policies, including but not limited to documentalioo of
            physician orders and documentation of care furnished while the
            computer medical record is down; (c) the responsibility of earo staff
            member to cooform to apprtcable statutes, regulations. and policies;
            and (d) the consequences of faifmg to compty with applicable
            Fresenius policies. All new nursing staff members will continue to
            undergo Fresenius training which includes the foregoing topics.
      •     Consistent with the Part 494 Conditions for Coverage (42 CFR section
            494.110 Condition: Quality assessment and performance
            improvement) for the next 12 months the faci~ty's Quality Assessment
            and Improvement Process will review a sampling of active medical
            records to monitor improved compliance with appficable Fresenius
            medical record documentation ~icies.
      •     The 2010 Fresenius Compliance Audit program will include a review of
            (a) the training activity above, to ensure that all affected employees
            were trained; (b) the (quality improvement process) to ensure that the
            aforementioned reviews occurred; and (c) an assessment of whether
            the training and monitoring has been effective in causing the faciity to
            conform to applicable Fresenius policies.

OIG Audit Recommendation:

"refund the $7,187 in overpayments"

Fresenius Corrective Aetion Taken or Planned;

   • Given the age of these daims, we will cootact the intermediary to
     determine ttle process to repay overpayments.




Fresenius Medical Care North America
Corporate H~3dqlQrten; 920 Winter Street Waltham, MA 02451·1457       (181)699-9000
                                                                                         APPENDIX C
                                                                                           Page 3 of 3 





   Fresenius Corrective Action Taken or Planned:

   While the payment error rate is low, we reoognize the need for the facility to
   improve its comprlance with policies and procedures relating to the ordering
   and administration of Epogen. Therefore, the clinic wiU take the following
   steps:

Finally, I note that in the Background section of the Introduction, the audit slates:

       ·Some facilities may also use a preestablished dosing algorithm, The
       algorithm is a formula established by the facility Medical Director and
       ordered by the physician."

AI Fresenius Medical Care clinics, while the facility Medical Director and
Governing Body review and approve algorithms ordered by staff physicians. it is
the staff physican (and not ttle medical director) who establishes the algorithm
for the staff physician's patients. While often all physicians at the dinic ~nduding
the staff physican Who serves as medical director) agree to use a single
algorithm, it is the staff physician rather than the medical director wf10 establishes
an algorithm for a partiQJlar patient.

Sncerely,




Todd Kerr
Senior Vice President and Chief Compliance OffICer
Fresenius Medical Care North America
920 Winter St.
Waltham, MA. 02451




Fresenius Medical Care North America
Corponte Headquarters:    920 WHltff Strnl   WaltNm, MA 02451-1457     (781) ~D
